                                                         U.S. OFFlCE OF PERSONNEL MANAGEMENT
                                                               OFFICE OF THE INSPECTOR GENERAL
                                                                                OFFICE OF AUDITS




Final Audit Report
Subject:

    Audit of the Federal Employees Health Benefits
  Program Operations at Health Net of California, Inc.
                  - Northern Region


                                              Report No. lC·LB·OO·Il·024

                                             Date: octd ber 19, 2011




                                                          -- CAUTION --

Tltis alldil repotl h,u bu n dl slriiJuled 10 Federal officills who arc t U polisibl e fot th e admini slrAlion of Iht Mudilrd prugram. Thil
a udit r~por[ may (Onlal n pruprlet ~ r)' data ....llIeh is protccted by Ft dtrallaw ( 18 U.S.C. 1905). Thcnforc. whil e Ih is audil report is
a\' lIil~blt. llndrr the Frtcdum uf InronTl~1ion At l ll nd IIlMdt Mv. iI. hle 10 tht public on th t O IG webp.gr. tMullon nceds 10 be u crrbrd
brfon Tclcuing the rtpOrllO Ih l" gt nerat publi c as il mMy cO lll llin proprieta ry in(urmMtinn Ihat ""IIS redacted rrnm Ih e publicly
dl~lrihultd copy.
                              UN ITED STATES OFFICE OF PERSONNEL MANAGEMENT
                                                    Washington. DC 20415


  Offi~   of the
Inspector General




                                         EXECUTIVE SUMMARY 





                                  Federal Emp loyees Health Benefits Program 

                               Community.Rated Health Maintenance Organization 

                                 Health Net of California, Inc. - Northern Region 

                                     Contract Number 2002 - Plan Code LB 

                                           Woodland Kills, California 




                      Report No. IC-LB-OO-I 1-024                     Date: October 19, 20 11

      The Office of the Inspector General performed an audit of the Federal Employees Health Benefits
      Program (FEHBP) operations at Health Nel of Cali forrua, Inc. - Northern Region (Plan). The
      audit covered contract years 2008 through 2010 and was conducted at the Plan' s office in
      Woodland Hill s, Ca lifornia. We found that the FEI-IBP rates were developed in accordance with
      applicable laws, regulations, and the Office of Personnel Management ' s rating instructions for
      lhe years audited.




        ww ..... ollm .lov
                                UN ITED STATES OFFICE OF PERSONNEL MANAGEMENT
                                                   Washington, DC 20415

  Office of the
InspeciOf General




                                                AUDIT REPORT



                                       Federal Employees Health Benefits Program 

                                    Community-Rated Health Maintenance Organization 

                                      Health Net of California, Inc. - Northern Region 

                                          Contract Number 2002 - Plan Code LB 

                                                Woodland Hills, California 




                           Report No. lC-LB-OO-II-024                      Date: Octob e r 1 9 . 2011




                                                                      ;/y&Michael R. Esser
                                                                          Assistant Inspector General
                                                                            for Audits




        ...... opm •• o¥                                                                         WWW.U5l1jOtl S·I O¥
                                                    CONTENTS


                                                                                                                   Page

      EXECUTIVE SUMMARY............................................................................................... i

  I. INTRODUCTION AND BACKGROUND ..................................................................... 1

II. OBJECTIVES, SCOPE, AND METHODOLOGY ......................................................... 3

III. RESULTS OF THE AUDIT ............................................................................................ 5

IV. MAJOR CONTRIBUTORS TO THIS REPORT ............................................................ 6
                     I. INTRODUCTION AND BACKGROUND

Introduction

We completed an audit of the Federal Employees Health Benefits Program (FEHBP) operations
at Health Net of California, Inc. – Northern Region (Plan). The audit covered contract years
2008 through 2010 and was conducted at the Plan’s office in Woodland Hills, California. The
audit was conducted pursuant to the provisions of Contract CS 2002; 5 U.S.C. Chapter 89; and 5
Code of Federal Regulations (CFR) Chapter 1, Part 890. The audit was performed by the Office
of Personnel Management’s (OPM) Office of the Inspector General (OIG), as established by the
Inspector General Act of 1978, as amended.

Background

The FEHBP was established by the Federal Employees Health Benefits Act (Public Law 86-382),
enacted on September 28, 1959. The FEHBP was created to provide health insurance benefits
for federal employees, annuitants, and dependents. The FEHBP is administered by OPM’s
Healthcare and Insurance Office. The provisions of the Federal Employees Health Benefits Act
are implemented by OPM through regulations codified in Chapter 1, Part 890 of Title 5, CFR.
Health insurance coverage is provided through contracts with health insurance carriers who
provide service benefits, indemnity benefits, or comprehensive medical services.

Community-rated carriers participating in the FEHBP are subject to various federal, state and
local laws, regulations, and ordinances. While most carriers are subject to state jurisdiction,
many are further subject to the Health Maintenance Organization Act of 1973 (Public Law 93-
222), as amended (i.e., many community-rated carriers are federally qualified). In addition,
participation in the FEHBP subjects the carriers to the Federal Employees Health Benefits Act
and implementing regulations promulgated by OPM.

The FEHBP should pay a market price                          FEHBP Contracts/Members
rate, which is defined as the best rate                             March 31

offered to either of the two groups closest         18,000
in size to the FEHBP. In contracting with           16,000
community-rated carriers, OPM relies on             14,000
carrier compliance with appropriate laws            12,000
and regulations and, consequently, does             10,000
not negotiate base rates. OPM                        8,000
negotiations relate primarily to the level           6,000
of coverage and other unique features of             4,000
the FEHBP.                                           2,000
                                                        0
                                                              2008        2009         2010
The chart to the right shows the number                       8,831       6,281        6,527
                                               Contracts
of FEHBP contracts and members                 Members       17,492      11,564        10,901
reported by the Plan as of March 31 for
each contract year audited.

                                                1
The Plan has participated in the FEHBP since 1980 and provides health benefits to FEHBP
members in Northern California. The last audit conducted by our office was a full scope audit
and covered contract years 2005 through 2007. There were no issues identified during that audit.

The preliminary results of this audit were discussed with Plan officials at an exit conference and
in subsequent correspondence. Since the audit concluded that the Plan’s rating of the FEHBP
was in accordance with applicable laws, regulations, and instructions, a draft report was not
issued.




                                                 2
                II. OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

The primary objectives of the audit were to verify that the Plan offered market price rates to the
FEHBP and to verify that the loadings to the FEHBP rates were reasonable and equitable.
Additional tests were performed to determine whether the Plan was in compliance with the
provisions of the laws and regulations governing the FEHBP.

Scope
                                                                       FEHBP Premiums Paid to Plan

We conducted this performance audit in
                                                                    $100
accordance with generally accepted government
auditing standards. Those standards require that                     $75




                                                      Millions
we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a                        $50
reasonable basis for our findings and conclusions
                                                                     $25
based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis                     $0
for our findings and conclusions based on our                              2008        2009          2010

audit objectives.                                                Revenue   $87.8       $66.8         $73.2


This performance audit covered contract years 2008 through 2010. For these years, the FEHBP
paid approximately $227.8 million in premiums to the Plan. The premiums paid for each
contract year audited are shown on the chart above.

OIG audits of community-rated carriers are designed to test carrier compliance with the FEHBP
contract, applicable laws and regulations, and OPM rate instructions. These audits are also
designed to provide reasonable assurance of detecting errors, irregularities, and illegal acts.

We obtained an understanding of the Plan’s internal control structure, but we did not use this
information to determine the nature, timing, and extent of our audit procedures. However, the
audit included such tests of the Plan’s rating system and such other auditing procedures
considered necessary under the circumstances. Our review of internal controls was limited to the
procedures the Plan has in place to ensure that:

        • The appropriate similarly sized subscriber groups (SSSG) were selected;

        • the rates charged to the FEHBP were the market price rates (i.e., equivalent to the best
          rate offered to the SSSGs); and

        • the loadings to the FEHBP rates were reasonable and equitable.

In conducting the audit, we relied to varying degrees on computer-generated billing, enrollment,
and claims data provided by the Plan. We did not verify the reliability of the data generated by

                                                 3
the various information systems involved. However, nothing came to our attention during our
audit testing utilizing the computer-generated data to cause us to doubt its reliability. We believe
that the available data was sufficient to achieve our audit objectives. Except as noted above, the
audit was conducted in accordance with generally accepted government auditing standards,
issued by the Comptroller General of the United States.

The audit fieldwork was performed at the Plan’s office in Woodland Hills, California, during
April 2011. Additional audit work was completed at our offices in Cranberry Township,
Pennsylvania and Jacksonville, Florida.

Methodology

We examined the Plan’s federal rate submissions and related documents as a basis for validating
the market price rates. Further, we examined claim payments to verify that the cost data used to
develop the FEHBP rates was accurate, complete, and valid. In addition, we examined the rate
development documentation and billings to other groups, such as the SSSGs, to determine if the
market price was actually charged to the FEHBP. Finally, we used the contract, the Federal
Employees Health Benefits Acquisition Regulations, and OPM’s Rate Instructions to
Community-Rated Carriers to determine the propriety of the FEHBP premiums and the
reasonableness and acceptability of the Plan’s rating system.

To gain an understanding of the internal controls in the Plan’s rating system, we reviewed the
Plan’s rating system’s policies and procedures, interviewed appropriate Plan officials, and
performed other auditing procedures necessary to meet our audit objectives.




                                                 4
                           III. RESULTS OF THE AUDIT

Our audit showed that the Plan’s rating of the FEHBP was in accordance with applicable laws,
regulations, and OPM’s rating instructions to carriers for contract years 2008 through 2010.
Consequently, the audit did not identify any questioned costs and no corrective action is
necessary.




                                              5
            IV. MAJOR CONTRIBUTORS TO THIS REPORT

Community-Rated Audits Group

                , Auditor-in-Charge

                 , Auditor

                    , Auditor

                    , Auditor

   _______________________________________________________________________

                  ., Chief

                , Senior Team Leader




                                       6
